APPENDIX TABLE OF CONTENTS
Opinion of the Second Circuit
(July 9, 2019)....................

la

Memorandum Decision and Order of the District
Court of New York (August 14, 2018)............... 9a
Letter from Pall Corporation
(December 23, 2015)......

31a

Declaration of Melanie Carr in Support of Defend­
ant’s Motion for Summary Judgment
(June 15, 2018)................................................... 33a
Plaintiffs Response to Statement of Undisputed
Facts and Plaintiffs Counter-Statement of
Facts—Relevant Excerpts
(July 24, 2018).................................................... 36a

App.la

OPINION OF THE SECOND CIRCUIT
(JULY 9, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AMADOU SOWE,
Plaintiff-Appellant,
v.
PALL CORPORATION,
Defendan t-Appellee.
No. 18-2695-cv
Appeal from a judgment of the
United States District Court for the
Northern District of New York (Scullin, J.).
Before: Dennis JACOBS, Debra Ann LIVINGSTON,
Joseph F. BIANCO, Circuit Judges.
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Plaintiff-Appellant Amadou Sowe (“Sowe”) appeals
from an order of the United States District Court for
the Northern District of New York, dated August 14,
2018, granting Defendant-Appellee Pall Corporation’s
(“Pall”) motion for summary judgment and dismissing
Sowe’s discrimination claims as precluded by a

App.2a
separation agreement that he signed on January 29,
2016 (“Separation Agreement” or “Agreement”), and
that purported to waive all claims in connection with
his termination in consideration for a severance package
that he received. See Order, No. 17-cv-449 (N.D.N.Y.
Aug. 14, 2018), ECF No. 26. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
[* * * ]
We review a district court’s grant of summary
judgment de novo. See Miller v. Wolpoff & Abramson,
L.L.P., 321 F.3d 292, 300 (2d Cir. 2003). “In determining
whether there are genuine issues of material fact
that preclude judgment for the defendant as a matter
of law, we must resolve all ambiguities in favor of the
nonmoving partly].” Amnesty Am. v. Town ofW. Hart­
ford, 361 F.3d 113, 122 (2d Cir. 2004). However, “[t]he
mere existence of some alleged factual dispute between
the parties will not defeat an otherwise properly sup­
ported motion for summary judgment; the require­
ment is that there be no genuine issue of material
fact.” Anderson v. Liberty Lobby, Inc., All U.S. 242,
247-48 (1986).
The Waiver’s Validity Under the OWBPA
Under the Older Workers Benefit Protection Act
(“OWBPA”), an individual cannot waive an Age Dis­
crimination in Employment Act (“ADEA”) claim “unless
the waiver is knowing and voluntary.” See 29 U.S.C.
§ 626(f)(1). In order to be deemed knowing and volun­
tary, a waiver must, “at a minimum,” fulfill a number
of explicit requirements. See id. § 626(f)(l)(A)-(H).
“The burden of proving that a claimed waiver was
knowing and voluntary within the meaning of the

App.3a
OWBPA is on the party asserting the validity of the
waiver.” Ridinger v. Dow Jones & Co., 651 F.3d 309,
314 (2d Cir. 2011) (internal quotation marks and
brackets omitted). To the extent an employer must
prove its waiver was “written in a manner calculated
to be understood,” see, e.g., 29 U.S.C. § 626(f)(1)
(A), it meets that burden “if the language of the
waiver agreement is calculated to be understood by
the average eligible employee,” and “where the indi­
vidual employee has not presented the district court
with any evidence from which to infer that his own
comprehension level was below that of the average
eligible employee,” Ridinger, 651 F.3d at 315 (emphasis
added).
At the start, Sowe argues that the district court
erred in dismissing his ADEA claim because the
Separation Agreement, with its purported waiver of
this claim, fails to comply with three of the OWBPA’s
requirements. First, he argues generally that the
Agreement was not “written in a manner calculated
to be understood by [him], or by the average individual
eligible to participate.” 29 U.S.C. § 626(f)(1)(A). How­
ever, that argument was not made in the district
court and is raised for the first time here. While
Sowe disputes this contention in his Reply Brief by
pointing to a line from his deposition in which he
says he found the Separation Agreement confusing, a
review of Sowe’s filings before the district court
reveals that no argument regarding subsection (A)
was made. Thus, we consider this claim waived and
will not address it. See Bogle-Assegai v. Connecticut,
470 F.3d 498, 504 (2d Cir. 2006) (“It is a well-established
general rule that an appellate court will not consider

App.4a
an issue raised for the first time on appeal.” (internal
quotation marks omitted)).
Second, Sowe contends that he was not given the
45 days required by the OWBPA to consider the
Separation Agreement. See 29 U.S.C. § 626(1)(l)(F)(ii).
This claim, however, is not supported by the record.
At the outset, the Agreement itself explicitly provides
for its return “on or before February 15. 2016” in bold
text on the first page—a date which gave Sowe 54
review days, even longer than the OWBPA requires.
See App’x 24. Sowe alleges that he executed the Agree­
ment and returned it in approximately 37 days because
he believed that he had to deliver an executed copy to
Pamela Denmark (“Denmark”), a manager in Pall’s
Human Resources Department, and Denmark’s last day
at Pall was January 29, 2016. Sowe bases this pur­
ported belief principally on a provision in the Separ­
ation Agreement that he return the signed Agree­
ment to “Employer (Attn: Pamela Denmark, Human
Resources Manager).” See id. at 24, 26. Although the
Agreement suggests that it should be marked to the
“Attention” of Denmark, however, it specifically pro­
vides that it should be returned to Sowe’s “Employer.”
which the Separation Agreement defines as “PALL
CORPORATION, a New York corporation with its
principal offices at 25 Harbor Park Drive, Port
Washington, New York 11050.” Id. at 24 (emphasis
added). It is undisputed, moreover, that “when, on
January 19, 2016, Plaintiff asked Ms. Denmark in an
email when the deadline for returning the agreement
was, she responded, ‘February 15, 2016’”—the very
date specified in bold on the Agreement’s first page.
Id. at 59. And Sowe communicated as well with other
Pall managers and Human Resources employees to

App.5a
whom the Agreement presumably could have been
given after Denmark’s departure. In sum, we agree
with the district court that whatever Sowe’s belief
about the period provided for review, there is no evi­
dence that Pall failed to afford him the review period
required by § 626(f)(1)(F) of the OWBPA.
Lastly, Sowe claims that Pall failed to comply with
§ 626(f)(1)(H) of the OWBPA by inadequately identify­
ing those considered and chosen for termination pur­
suant to Pall’s reduction in force. See 29 U.S.C. § 626
(f)(l)(H)(ii) (requiring that, if an employee is being
terminated as part of a “program offered to a group
or class of employees,” the employee be given a
writing that informs him of “the job titles and ages of
all individuals eligible or selected for the program,
and the ages of all individuals in the same job classi­
fication or organizational unit who are not eligible or
selected for the program.”). Sowe claims that a
Reduction in Force Memo (“RIF Memo”) provided to
him by Pall at the same time he received the Sepa­
ration Agreement included only “vague descriptions”
of those considered for termination and was thus
insufficient. This claim, however, is also belied by the
record.
Sowe first contends that the RIF Memo describes
the affected unit at Pall as simply “certain employees.”
The RIF Memo instead announces a reduction in force
of Pall’s Central Technology Organization division—
informing its recipients that “[cjertain employees of
[this] division of the Pall Corporation .. . ha[d] been
notified by the Company that their employment with
the Company [would] terminate in connection with a
reduction in force with respect to such division.”
App’x 29. There is no dispute as to the existence of a

App.6a
division called the “Central Technology Organization”:
Sowe himself agreed in his deposition that “CTO is
one of many different business units at Pall.” Id. at
79. Accordingly, we reject his claim that the affected
organizational unit was inadequately described. Cf.
Ribble v. Kimberly-Clark Corp., No. 09-C-643, 2012 WL
589252, at *12 (E.D. Wis. Feb. 22, 2012) (“Assuming
that the employer’s identification of class, unit or group
of employees from which the employees selected for
separation were chosen reasonably describes an
existing organizational unit within the company, the
employer’s designation should stand.”).
Sowe next argues that the RIF Memo was confu­
sing and failed to comply with subsection (H) of the
OWBPA because it did not provide the geographical
location of each of the members of the CTO division
referenced in the memo. He relies primarily on a single
district court case, Pagliolo v. Guidant Corp., 483 F.
Supp. 2d 847, 857-59 (D. Minn. 2007). In Pagliolo, the
district court determined that “listing nearly all
United States-based employees” was insufficient to
satisfy § 626(f)(1)(H) in the circumstances of that case
because such disclosure failed to describe the affected
unit “in a manner calculated to be understood by the
average individual eligible to participate in the
Severance Plan.” Id. at 858. But here, Pall’s RIF
Memo, which listed far fewer employees than the
memo at issue in Pagliolo, clearly identified the
affected unit as the CTO division. Moreover, when
asked whether he recognized that the RIF Memo
referenced employees from outside of the Cortland
facility at which he worked, Sowe responded that he
“knew that the employees were all over the place in
the United States.” App’x 119. We agree with the dis-

App.7a
trict court that subsection (H) does not by its terms
require that a reduction in force memo provide geo­
graphical information as to those employees considered
and selected for termination. Nor does the absence of
such information here raise any material question of
fact as to whether the RIF Memo was written in a
manner “calculated to be understood,” as required by
the OWBPA. See 29 U.S.C. § 626(£)(l)(H).
The Fraudulent Inducement Claim
Finally, Sowe asserts that even if the Separation
Agreement is not invalid under the OWBPA’s minimum
requirements, he was fraudulently induced to sign
the Agreement and thus it cannot bar his claims. Sowe
points to evidence that Pall posted a job following
Sowe’s termination as part of the reduction in force.
But as the district court observed, Sowe does not
claim that the job posted by Pall was his exact job:
rather, it was merely a job he “could do.” Both parties
agree that to succeed on a fraudulent inducement claim,
Sowe must show that Pall misrepresented a material
fact in order to induce his execution of the waiver.
See Merrill Lynch & Co. v. Allegheny Energy, Inc.,
500 F.3d 171, 181 (2d Cir. 2007) (“In New York a
plaintiff alleging fraud must show by clear and
convincing evidence that the defendant knowingly or
recklessly misrepresented a material fact, intending
to induce the plaintiffs reliance, and that the plaintiff
relied on the misrepresentation and suffered damages
as a result.”). However, Sowe does not identify any
false representations made to him—regarding the
company’s future hiring plans or otherwise—that
induced him to enter into the Separation Agreement.
Indeed, as Pall points out in its brief to this Court,
Sowe gave the following testimony at his deposition:

App.8a

Q:

Can you identify any statement that someone
at Pall made to you that was untrue, that
was uttered in order to convince you to sign
a separation agreement?

A:

No, I don’t.

App’x 127-28 (emphasis added). Because Sowe effec­
tively conceded that he cannot prove a material mis­
representation, which is an element of his fraudulent
inducement claim, the district court correctly concluded
that Sowe’s claim for fraudulent inducement was prop­
erly dismissed.
We have considered Sowe’s remaining arguments
and find them to be without merit, l Accordingly, we
AFFIRM the judgment of the district court.
FOR THE COURT:
Is/ Catherine O’Hagan Wolfe
Clerk

1 With regard to Sowe’s claims under the New York Human
Rights Law, we deem these claims abandoned, as Sowe failed to
address them before either the district court or this Court. See
Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998) (“Issues
not sufficiently argued in the briefs are considered waived and
normally will not be addressed on appeal.”).

App.9a

MEMORANDUM DECISION AND ORDER OF THE
DISTRICT COURT OF NEW YORK
(AUGUST 14, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
AMADOU SOWE,
Plaintiff,
v.
PALL CORPORATION,
Defendant.
No. 3:17-CV-449 (FJS/DEP)
Before: Fredrick J. SCULLIN, JR.,
Senior United States District Judge.
I. Introduction
Pending before the Court is Defendant’s motion
for summary judgment pursuant to Rule 56 of the
Federal Rules of Civil Procedure. See Dkt. No. 20.1

1 The Court scheduled oral argument regarding this motion for
August 10, 2018, in Albany, New York. See Motion Scheduling
Notice dated July 3, 2018. However, due to some confusion about
the location, Plaintiffs counsel failed to appear. Therefore, the
Court determined that, rather than reschedule the hearing date,
it would decide the motion based on the parties submissions.

App.lOa

II. Background
Plaintiff commenced his employment with Defen­
dant in 1988; and, at all times during his employ­
ment, Plaintiff worked at Defendant’s facility in
Cortland, New York. Plaintiffs last position with
Defendant was “Principal Scientist” in the “Central
Technology Organization (“CTO”), one of Defendant’s
many business units. From November 1, 2015, through
the end of his employment with Defendant, Plaintiffs
managers were Thomas Sorensen, Director, Research
& Development, and Eilidh Bedford, Vice President,
Research & Development. At all relevant times,
there was a Human Resources (“HR”) Office at
Defendant’s Cortland Facility, in which Melanie Carr
was the HR Director and Pamela Denmark was the
HR Manager.
On November 11, 2015, Plaintiff met with Mr.
Sorensen, Ms. Denmark, and Scott Hopkins, Senior
Director, Research & Development, at which time they
informed him that his position would be eliminated
the following month. In fact, in December 2015,
Defendant effected a reduction in force (“RIF”) within
its CTO, resulting in the separation of thirteen CTO
employees, one of whom was Plaintiff. During the
November 11, 2015 meeting, management and HR also
explained to Plaintiff that, before the end of the year,
he would receive a severance package offer for his
consideration.
On December 23, 2015, Mr. Sorensen and Ms.
Denmark met with Plaintiff and hand-delivered a
proposed Separation and General Release Agreement
(“Separation Agreement”), along with an RIF Memo,
which included a chart of impacted and non-impacted

App.lla

CTO employees. The Separation Agreement expressly
provided as follows:
Plaintiffs last day of employment with
Defendant was January 1, 2016;
In exchange for his execution and non­
revocation of the Separation Agreement,
Plaintiff would receive monetary consideration
to which he was not otherwise entitled;
In exchange for the monetary consideration,
Plaintiff would be “unconditionally and irre­
vocably releasing], waivting], discharging],
and giving] up” all “actions, charges, contro­
versies, demands, causes of action, suits,
rights, and/or claims whatsoever for . . .
damages,” against [Defendant], through the
date he executed the agreement, including
those arising under “the Age Discrimination
in Employment Act (“ADEA”), the Older
Workers’ Benefit Protection Act... [and] the
New York State Human Rights Law” and
including claims “of which [Plaintiff] is not
aware; and
The Settlement Agreement would be effective
on the 8th day after Plaintiff executed it if
he did not revoke his signature by that date.
See generally Dkt. No. 20-7, Separation and General
Release Agreement.
In addition, the Separation Agreement required
the following representations from Plaintiff:
Plaintiff “had sufficient opportunity to
consider [the Separation] Agreement”;

App.l2a
Plaintiff “read [the Separation] Agreement”;
Plaintiff “underst[ood] all the terms and
conditions”;
Plaintiff “entered into [the Separation] Agree­
ment of [his] own free will and volition”; and
Plaintiff had 45 days to review the Separation
Agreement and RIF Memo and was “free to
use as much or as little of the 45-day period
as he . . . wishetd] or consider[ed] necessary
before deciding to sign [the Separation]
Agreement.”
See id. at U 12(A).
The Separation Agreement clearly “advised and
encouraged” Plaintiff to “consult with his own
independent counsel before signing,” see id., an in­
struction Plaintiff admits Ms. Denmark also verbally
provided to him during their December 23, 2015
meeting. Plaintiff met with his attorney, Edward
Kopko, who represents him in this action, regarding
the proposed Separation Agreement.
Thirty-seven days after receiving the Separation
Agreement, and after conferring with his attorney,
Plaintiff signed and returned the Separation Agreement
by hand-delivering his signed Separation Agreement
to Ms. Denmark, at Defendant’s Cortland facility, on
January 29, 2016. Although the Separation Agreement
expressly provided a seven-day revocation period,
Plaintiff never revoked his signature. Plaintiff received
the full monetary consideration Defendant promised
him in the Separation Agreement, and he never
returned that consideration to Defendant.

App.l3a
On April 24, 2017, Plaintiff filed his complaint in
this action. See Dkt. No. 1 (“Complaint”). In his com­
plaint, Plaintiff asserted the following causes of
action: (l) “violat[ion of] 42 U.S.C. § 1983 by violating
the Age Discrimination in Employment Act, 29 U.S.C.
§ 621 et seq”; (2) “violation of] the Age Discrimination
in Employment Act, 29 U.S.C. § 621 et seq”; (3) viola­
tion of] New York Executive Law, § 296, related to
age discrimination”; (4) violation of] the OWBPA,
§ 626(f)[(l)](F)(ii)”; (5) “violation of] the OWBPA,
§ 626(£)[(l)](H)(i)(ii)”; (6) violation of “29 C.F.R. Section
1625.22(a)(3)”; (7) fraudulent inducement; and (8)
“infliction of] mental pain and anguish.” See Com­
plaint at TfTf 65-72.2
After the parties completed discovery on the issues
relevant to the validity and enforceability of the
Separation Agreement, Defendant filed the pending
motion for summary judgment. See Dkt. No. 20.
Plaintiff filed opposition to the motion, see Dkt. No.
21, to which Defendant filed a reply, see Dkt. No. 22.

2 Defendant notes that, after Plaintiff filed his complaint, “[t] he
parties and the Court agreed that the case would proceed most
efficiently if the parties first addressed the issue of whether
Plaintiff previously released the claims he now asserts. To this
end, the Court temporarily stayed merits-based discovery and
motion deadlines, and permitted bifurcated discovery, with the
initial phase focused upon issues relevant to the validity and
enforceability of the Separation Agreement.” See Dkt. No. 20-1
at 5.
References to page numbers of documents in the record are to
the page numbers that the Court’s Electronic Case Filing system
generates.

App,14a

III. Discussion
A.

Preliminary Matters
1. Plaintiffs Response to Defendant’s Statement
of Material Facts
Local Rule 7.1(a)(3) provides as follows:
Any motion for summary judgment shall
contain a Statement of Material Facts. The
Statement of Material Facts shall set forth,
in numbered paragraphs, each material fact
about which the moving party contends
there exists no genuine issue. Each fact
listed shall set forth a specific citation to the
record where the fact is established. The
record for purposes of the Statement of
Material Facts includes the pleadings, depo­
sitions, answers to interrogatories, admis­
sions and affidavits. It does not, however,
include attorney’s affidavits. Failure of the
moving party to submit an accurate and
complete Statement of Material Facts shall
result in a denial of the motion.
[★

* ie

]

The opposing party shall file a response to
the Statement of Material Facts. The non­
movant’s response shall mirror the movant’s
Statement of Material Facts by admitting
and/or denying each of the movant’s assertions
in matching numbered paragraphs. Each
denial shall set forth a specific citation to
the record where the factual issue arises.
The Court shall deem admitted any properly

App.l5a
supported facts set forth in the Statement of
Material Facts that the opposing party does
not specifically controvert. The non­
movant’s response may also set forth any
additional material facts that the non­
movant contends are in dispute in separately
numbered paragraphs, followed by a specific
citation to the record where the fact is
established.
N.D.N.Y. L.R. 7.1(a)(3) (bolding added).
As Defendant accurately points out, Plaintiffs
response to Defendant’s Statement of Material Facts
contains no citations to the record. See generally Dkt.
No. 21-2, Plaintiffs Response to Statement of
Undisputed Facts and Plaintiffs Counter-Statement
of Facts. Furthermore, Plaintiffs “Counter-Statement
of Facts,” to the extent that Plaintiff intends these
statements to be “additional material facts,” are not
in “separately numbered paragraphs” nor are they
“followed by a specific citation to the record where
the fact is established.” See generally id.
The underlying purpose of Local Rule 7.1(a)(3)
“is to assist the court in framing the issues and
determining whether there exist any triable issues of
fact that would preclude the entry of summary judg­
ment.” Cf. Younglood v. Glasser, No. 9:10-CV-1430,
2012 WL 4051846, *4 (N.D.N.Y. Aug. 22, 2012) (citation
and footnote omitted). Furthermore, as courts in this
District have indicated on numerous occasions, this
District’s ‘“Local Rules requirements are not empty
formalities.’” Willig v. Swarts, No. 1:12-CV-1649, 2015
WL 5093771, *2 (N.D.N.Y. Aug. 28, 2015) (quoting
Bombard v. Gen. Motors Corp., 238 F. Supp. 2d 464,
467 (N.D.N.Y. 2002) (stating that “[t]he courts of the

App.l6a

Northern District have adhered to a strict applica­
tion of Local Rule 7.l(a)(3)’s requirement on sum­
mary judgment motions” (citations omitted))).
Since Plaintiffs response to Defendant’s Statement
of Material Facts does not comply with the require­
ments of Local Rule 7.1(a)(3), the Court accepts the
factual assertions that Defendant set forth in its
Statement of Material Facts as true to the extent
that the evidence in the record supports those facts.
See Aktas v. JMCDev. Co., Inc., 877 F. Supp. 2d 1, 5
n.3 (N.D.N.Y. 2012) (accepting the third-party defen­
dants’ statement of material facts as true because the
defendant/third-party plaintiff failed to respond to it
in accordance with Local Rule 7.1(a)(3) (citations
omitted)).
2. Plaintiffs Abandonment of His State-Law
Claims Under New York Human Rights Law
Defendant notes that, although it moved for
summary judgment with regard to all of Plaintiffs
claims, Plaintiff only responded to its arguments con­
cerning his ADEA claims. Therefore, Defendant asserts
that the Court should conclude that Plaintiff has
abandoned his state-law claims under the New York
Human Rights Law (“NYHRL”).
As the Second Circuit explained in Jackson v.
Fed. Express, 766 F.3d 189 (2d Cir. 2014), “[glenerally
... a partial response [to a motion for summary judg­
ment] reflects a decision by a party’s attorney to
pursue some claims or defenses and to abandon
others.” Id. at 196. “Moreover, preparation of a
response to a motion for summary judgment is a par­
ticularly appropriate time for a non-movant party to
decide whether to pursue or abandon some claims or

App.l7a

defenses. Indeed, Rule 56 is known as a highly useful
method of narrowing the issues for trial.” Id. Finally,
“[w]here abandonment by a counseled party is not
explicit but such an inference may be fairly drawn
from the papers and circumstances viewed as a
whole, district courts may conclude that abandonment
was intended.” Id.
In its Memorandum of Law, Defendant included a
section entitled “The Separation Agreement is Likewise
Valid and Enforceable Under the NYHRL’s ‘Totality
of the Circumstances’ Test.” See Dkt. No. 20-1. In
this section, Defendant addressed Plaintiffs claims
under the NYHRL and set forth its reasons for arguing
that the Court should grant its motion for summary
judgment and dismiss Plaintiffs NYHRL claims under
the “totality of the circumstances” test.
In response, Plaintiffs Memorandum of Law makes
no mention of his NYHRL claims or the “totality of
the circumstances” test that would apply to those
claims. In fact, in his Memorandum of Law, Plaintiff
focuses entirely on the issue of whether the Separation
Agreement complied with the OWBPA and whether
Defendant’s representations to him were fraudulent.
Viewing the papers that the parties submitted in
support of and in opposition to Defendant’s motion,
the Court finds that, based on these submissions and
the circumstances in their entirety, Plaintiff has
abandoned his claims under the NYHRL. Therefore, the
Court grants Defendant’s motion for summary judg­
ment with regard to those claims.

i■

App.l8a
3. The Troublesome Email Chain
In paragraph 33 of this Declaration in opposition
to Defendant’s motion for summary judgment, Plaintiff
asserts that, “[b]y email dated January 19, 2016, I
inquired about the deadline for submitting the
Separation Agreement and [Ms.] Denmark responded,
suggesting that I turn in the Separation Agreement
earlier than February 15, 2016:
[Email from Plaintiff to Ms. Denmark]
Good morning, Pamela,
When is the deadline for signing the docu­
ment?
I am in the process of setting up a computa­
tional fluid dynamics consulting business. I
intend to talk to my lawyer about this busi­
ness setup as well as have him review the
severance document around the end of Jan­
uary if not sooner.
Regards,
Amadou
[Email from Ms. Denmark to Plaintiff]
I suggest we meet to discuss this further.
I’m thinking we could meet this week or
next and you can give me your signed
Agreement at the same time. When would be
a good time for you?
Best regards,
See Dkt. No. 21-1, Declaration of Amadou Sowe
(“Sowe Decl.”) at If 33.

App.l9a
Plaintiff further asserts, in the next paragraph,
that, “[b]y these emails from [Ms.] Denmark, I felt
that [Ms.] Denmark was pressing me to deliver the
Separation Agreement to [Ms.] Denmark prior to the
February 15, 2016 deadline.” See id. at Tf 34.
Then in the next paragraph of his declaration,
Plaintiff states, “By email dated January 19, 2016
[Ms.] Denmark told me that she would not be at Pall
after February 1, 2016:
On Tue, Jan 19, 2016 at 10:18 AM,_<pamela_
denmark@pall.com> wrote:
Hi Amadou,
The deadline is February 15th. Remember I
won’t be here after February 1st. So if we
don’t meet before February 1st then Melanie
[Carr] can discuss the PTO [Personal Time
Off] with you.
Starting your own business sounds like an
exciting adventure!! Good luck!
Best regards,
See id. at

35.

Finally, Plaintiff states that,
[e]ven though I wanted the additional time
after February 1, 2016 to submit the Separa­
tion Agreement, I felt compelled to submit
the Separation Agreement to [Ms.] Den­
mark before [Ms.] Denmark left prior to
February 1, 2016, and 1 made arrangements
to meet with [Ms.] Denmark on Friday, Jan­
uary 29, 2016 when I delivered the signed
Separation Agreement to [Ms.] Denmark.

App.20a
See id. at ][ 36.
Defendant claims that Plaintiffs cutting and
pasting from the entire email chain from which he
took these passages is misleading and that, additionally,
although Plaintiff should have turned this email chain
over to Defendant in response to its discovery request,
he failed to do so.3 The Court has reviewed the entire
email chain, which Defendant provided as part of its
reply to Plaintiff s opposition to its motion. See Dkt.
No. 22-4, Reply Declaration of Melanie Carr, at Tf 2;
Dkt. No. 22-5, Exhibit 1 to Reply Declaration of Melanie
Carr. Having done so, it is clear that Ms. Denmark
never provided Plaintiff with any misleading infor­
mation about the deadline for returning the Separ­
ation Agreement nor did she exert any pressure on
Plaintiff to return the Separation Agreement prior to
her leaving Defendant’s employ at the end of January
2016. In fact, when Plaintiff asked her directly what
the deadline was, she responded, “February 15th.” In
addition, until January 19, 2016, the email chain,
from which Plaintiff cut and pasted these portions,
related to Plaintiffs questions about the calculation
of his PTO, which he directed to Ms. Denmark and Mr.
Sorensen, with copies to Melanie Carr, Ms. Denmark’s
boss, and Traci Resch. Thus, it is not surprising that
Ms. Denmark reminded Plaintiff that she would not
be there after February 1st and that, therefore, if
they did not meet before that time, he could continue
his discussion about the calculation of his PTO with
Ms. Carr.
3 This email chain is clearly responsive to Defendant’s discovery
request; and, therefore, Plaintiff should have provided it to
Defendant during discovery.

App.21a

For all these reasons, the Court finds that Plain­
tiff s reliance on this email chain to create an issue of
fact regarding the issue of whether the Separation
Agreement met the requirements of the OWBPA is
unavailing.
B.

Plaintiffs Claim That the Separation Agreement
Does Not Meet the Requirements of the OWBPA

“In 1990, Congress enacted the Older Workers
Benefit Protection Act (“OWBPA”), which ‘amendted]
the ADEA[ ] to impose specific requirements for releases
covering ADEA claims.”’ McCormack v. IBM, 145 F.
Supp. 3d 258, 266 (S.D.N.Y. 2015) (quoting Bidinger,
651 F.3d at 313). “A purported waiver of ADEA claims
is governed by [OWBPA], which states that “an indi­
vidual may waive his rights only if the waiver is
knowing and voluntary.’”” Id. (quoting Wahab v. Estee
Lauder Cos., Inc., No. 12-CV-3932, 2014 WL 4904592,
at *16 (E.D.N.Y. July 17, 2014) (quoting 29 U.S.C.
§ 626(f)(1)), adopted by 2014 WL 4906511 (E.D.N.Y.
Sept. 30, 2014)).
The OWBPA provides that “a waiver may not be
considered knowing and voluntary unless at a mini­
mum” certain conditions are met, the following of
which are at issue in this case:
if a waiver is requested in connection with
an exit incentive or other employment termi­
nation program offered to a group or class of
employees, the individual is given a period
of at least 45 days within which to consider
the agreement [and]
[

* * Vf

]

App.22a

if a waiver is requested in connection with
an exit incentive or other employment termi­
nation program offered to a group or class of
employees, the employer (at the commence­
ment of the period specified in subpara­
graph (F)) informs the individual in writing
in a manner calculated to be understood by
the average individual eligible to partici­
pate, as to—
(i) any class, unit, or group of individuals
covered by such program, any eligibility
factors for such program, and any time
limits applicable to such program; and
(ii) the job title and ages of all individuals
eligible or selected for the program, and the
ages of all individuals in the same job
classification or organizational unit who are
not eligible or selected for the program.
29 U.S.C. § 626(0(l)(F)(ii), (H)(i), (H)(ii).
‘“The OWBPA strictures on waivers are strict and
unqualified!,]’ and ‘[a]n employee may not waive an
ADEA claim unless the employer complies with the
statute.’” McCormack, 145 F. Supp. 3d at 267 (quoting
Ridinger, 651 F.3d at 314). “‘The burden of proving
that a claimed “waiver was knowing and voluntary”
within the meaning of the OWBPA is on “the party
asserting the validity of [the] waiver.”’” Id. (quoting
Ridinger, 651 F.3d at 314 (quoting 29 U.S.C.
§ 626(f)(3))) (citing Wahab, 2014 WL 4904592, at *17
(same)).
Furthermore, “‘the OWBPA requirements set out
in § 626(0 are only minimum requirements to find a
waiver knowing and voluntary, and . . . the ultimate

App.23a

test remains whether that waiver was in fact knowing
and voluntary.’” Id. (quoting Sheridan v. McGrawHill Cos., Inc., 129 F. Supp. 2d 633, 638 (S.D.N.Y.
2001)) (other citation omitted). “To determine whether
a waiver is knowing or voluntary, ‘[dlistrict courts
review the totality of the circumstances.’” Id. (quoting
Callahan v. Unisource Worldwide, Inc., 451 F. Supp.
2d 428, 434 (D. Conn. 2006)). In this context, “[t]he
EEOC’s regulations provide that facts and circum­
stances that bear on the question of whether a waiver
is knowing and voluntary include whether ‘there is a
material mistake, omission, or misstatement in the
information furnished by the employer to an employ­
ee in connection with the waiver.’” Id. at 367-68
(quoting 29 C.F.R. § 1625.22(a)(3)) (citing O’Grady v.
Middle Country Sell. Dist.. No. 11, 556 F. Supp. 2d
196, 201 (E.D.N.Y. 2008) (“Nonstatutory circumstances,
such as fraud, duress, or coercion in connection with
the execution of the waiver, may render an ADEA
waiver not knowing and voluntary.”)). In fact, ‘“[t]he
legislative history of the OWBPA indicates that the
fundamental purpose of its waiver provisions is to
ensure that an older worker who is asked to sign an
ADEA waiver does so in the absence of fraud, duress,
coercion, or mistake of material fact.’” Id. (quoting
Butcher v. Gerber Prods Co., 8 F. Supp. 2d 307, 319
(S.D.N.Y. 1998)).
1. Compliance with OWBPA, 29 U.S.C. § 626®

(lXFXii)
The record belies Plaintiffs claim that Defendant
did not give him a period of at least 45 days to consider
the Separation Agreement. First, the Separation
Agreement, which Plaintiff received on December 23,
2015, explicitly stated that the “Agreement must be

App.24a

executed and delivered to Employer (Attn: Pamela
Denmark, Human Resources Manager) on or before
February 15, 2016.” indicating that Plaintiff had more
than 45 days to review the agreement. Furthermore,
Plaintiffs assertion that, because Ms. Denmark left
Defendant’s employ as of February 1, 2016, Defend­
ant somehow shortened the 45-day period is specious,
particularly in light of the fact that, when, on Janu­
ary 19, 2016, Plaintiff asked Ms. Denmark in an
email when the deadline for returning the agreement
was, she responded, “February 15, 2016.” Finally,
Plaintiff has not pointed to anything in the record
that would support “his belief’ that he had to return
the Separation Agreement to Ms. Denmark, and no
one other than Ms. Denmark, before she left Defend­
ant’s employ, particularly in light of the fact that the
Separation Agreement defines “Employer” as “PALL
CORPORATION, a New York corporation with its
principal offices at 25 Harbor Park Drive, Port Wash­
ington, New York 11050.” See Dkt. No. 20-7, Separ­
ation and General Release Agreement, at 2.
For all these reasons, the Court concludes that the
undisputed facts demonstrate that the Separation
Agreement complied with 29 U.S.C. § 626(f)(l)(F)(ii).
2. Compliance with OWBPA, 29 U.S.C. § 626(0
(l)(H)(i), (ii)
Plaintiff argues that the Separation Agreement
and the accompanying RIF Memo do not comply with
§ 626(f)(l)(H)(i) and (ii). The RIF Memo states, in
pertinent part, “[cjertain employees of the Central
Technology Organization division of Pall Corporation
(the “Company”) have been notified by the Company
that their employment with the Company will termi-

App.25a
nate in connection with a reduction in force with
respect to such division (the “Reduction in Force”).” See
Dkt. No. 20-10 at 2. Plaintiff asserts that “[t]he RIF
is false, deceptive, and misleading in that the
‘Central Technology Organization division of Pall
Corporation’ [(“CTO”), in which he worked,] is a world­
wide division, not simply a division within the United
States, and [Defendant] listed only employees is [sic]
the United States, and did not include in the Decisional
Unit other . . . employees outside the United States.”
See Complaint at f 42.
In its Statement of Material Facts, Defendant
asserts that, “[i]n December 2015, [it] effected a
reduction in force within its CTO, resulting in the
separation of thirteen (13) CTO employees, including
Plaintiff. .. [and] [t]he impacted employees worked
at [Defendant’s] facilities in Cortland, NY, Port
Washington, NY. and Pensacola, FL.” See Dkt. No. 202 (“Defendant Statement of Facts”) at
9-10 (citing
Carr Decl. at U 3). As noted, because Plaintiffs
response to Defendant’s Statement of Material Facts
did not comply with Local Rule 7.1(a)(3), the Court
deems Defendant’s facts admitted because they are
supported by the record, specifically Ms. Carr’s Dec­
laration as well as the RIF Memo.4

4 Furthermore, Defendant asserts that Plaintiff has manufactured
an objection to the RIF Memo’s limitation to U.S. employees
without any factual evidence to support this objection or citing
any authority that would require an employer to include non-U.S.
employees in ADEA workforce reduction disclosures accompanying
a separation agreement. See Dkt. No. 22 at 10. Moreover, Defend­
ant notes that the OWBPA amended the ADEA, which generally
protects only U.S. employees. See id. (citing 29 U.S.C. § 630(f)).

App.26a
In addition to information about the decisional
unit, in this case Defendant’s CTO division, the
employer must also inform the affected employee of
“the job titles and ages of all individuals eligible or
selected for the program, and the ages of all individuals
in the same job classification or organizational unit
who are eligible or selected for the program.” 29
U.S.C. § 626(f)(l)(H)(ii); see also Ribble v. KimberlyClark Corp., No. 09-C-643, 2012 WL 589252, *13 (E.D.
Wis. Feb. 22, 2012) (noting that “[t]he employer must
include the job titles and ages of all of the employees
within the decisional unit and indicate those who are
retained and those whose employment was
terminated”).
In this case, the RIF Memo that Defendant pro­
vided to Plaintiff included a chart with the “age,”
“title,” and “number” of employees who had a particular
title for both employees in the CTO who were
“ineligible,” i.e., “those employees of the Company
who are not being terminated on or about such date,
but who have the same job classification or are in the
same organizational unit as eligible employees” and
those who were “eligible,” i.e., “[t]hose employees
whose employment will terminate in connection with
the Reduction in Force.” See Dkt. No. 20-10 at 2.
In pertinent part, 29 U.S.C. § 630(0 provides that “[t]he term
‘employee’ includes any individual who is a citizen of the United
States employed by an employer in a workplace in a foreign
country.” 29 U.S.C. § 630(0. Plaintiff has not pointed to anything
in the record to indicate that, if in fact Defendant’s CTO division
is international in scope, any of the individuals who work in
Defendant’s CTO division outside the United States are United
States citizens and, thus, would be considered “employees” within
the meaning of the ADEA and the OWBPA.

App.27a
As the undisputed facts make clear, the RIF Memo,
which Defendant provided to Plaintiff, provided all of
the information that § 626(£)(l)(H)(i) required, i.e.,
the definition of the decisional unit and all of the
information that § 626(f)(l)(H)(ii) required, i.e., job
title and ages of individuals who were both eligible
and ineligible. Therefore, the Court finds that
Defendant has demonstrated that the Separation
Agreement and RIF Memo comply with the require­
ments of 29 U.S.C. § 626(£)(1)(H)(0, (ii).
C.

Plaintiffs Claim That Defendant Fraudulently
Induced Him to Sign the Separation Agreement

Plaintiff asserts that Defendant fraudulently
induced him to sign the Separation Agreement by
falsely, deceptively and misleadingly telling him that
his position was being eliminated as part of an RIF
when Defendant actually was not eliminating his
position.
This claim does not require much discussion. As
the court explained in McCormack, [fraudulent
inducement claims are subject to the heightened
pleading standards of Federal Rule of Civil Procedure
9(b)McCormick, 145 F. Supp. 3d at 275 (quoting
Eaves, 785 F. Supp. 2d at 246-47). Therefore, a plaintiff
“‘must: “(l) specify the statements that the plaintiff
contends were fraudulent, (2) identify the speaker,
(3) state where and when the statements were made,
and (4) explain why the statements were fraudulent [.]
Id. at 275-76 (quoting First Hill Partners, 52 F. Supp.
3d at 637 (quoting Rombach, 355 F.3d at 170)).
Plaintiff bases his claim on his allegation that,
“[o]n or about February 12, 2016, (after the [sic] Feb­
ruary 6, 2016, the date on which [Defendant] believed

App.28a
the Release to be effective) [Defendant] posted an
advertisement for an [sic] job position on ‘glass
door.com’ for an ‘Engineer II-Computational Fluid
Dynamics-Cortland, New York,’ position similar to
the one formerly occupied by [Plaintiff] and per­
forming identical duties.” See Complaint at 1 58 &
Exhibit “4” attached thereto. Plaintiff further alleged
that he “did not sign the Release knowingly and
voluntarily, because if he had known that [Defend­
ant] was maintaining a position identical to the
position formerly occupied by [Plaintiff], [he] would
not have relinquished his right to sue for age dis­
crimination in exchange for the compensation offered
to him arising from the Release.” See id. at If 59.
At his deposition, when asked about this job
posting and its relevance to his claim that Defendant
had fraudulently induced him to sign the Separation
Agreement, Plaintiff stated that he had included this
job posting in his discovery materials because
A.

[T]he job posting was put in less than five
days after the revocation period.
So you could see that the reason for adding
this in there is really to prove my point,
that [Defendant’s] argument was completely
fraudulent, because they tell you that we’re
eliminating your position because of RIF,
which all of a sudden you sign the Separation
Agreement, and then they post the job that
you had. That’s the reason for having that
in there.

Q.

Are you claiming that this job posting was
for the position that you occupied with
[Defendant]?

App.29a
A.

It’s a position that I could do at [Defendant],

*SeeDkt, No. 22-2, Transcript of Plaintiffs Deposition,
at 77:18-78:11.
In response, Melanie Carr, Defendant’s Director
of Human Resources at the Cortland facility, stated
in her reply declaration that she had reviewed the
job description to which Plaintiff had referred in f 38
of his Declaration, i.e., the one discussed above, and
it was not the posting for Plaintiffs former position.
See Dkt. No. 22-4 (“Carr Reply Deck”) at U 3.
In light of the fact that Plaintiff backed away
from the allegation in his complaint that the job
posting in question was for the position that he had
formerly held and, instead, was a position that he
“could do,” and Ms. Carr’s declaration that the posting
in question was not for Plaintiffs former position, the
Court finds that, even if Plaintiff sincerely believed
that his termination was the product of unlawful dis­
crimination, this belief was “insufficient to support an
allegation of fraudulent inducement when no other
evidence supports this claim.” Sheridan v. McGrawHill Cos., Inc., 129 F. Supp. 2d 633, 638-39 (S.D.N.Y.
2001) (citation omitted). As the court noted in Sheridan,
“allowing such a belief to invalidate a waiver [would]
preclude [ ] the possibility of ever having an enforceable
waiver of discrimination claims.” Id. at 639.
Accordingly, for these reasons, the Court concludes
that Plaintiff has not raised an issue of fact with
regard to his claim of fraudulent inducement.

App.30a
IV. Conclusion
Having reviewed the entire file in this matter,
the parties’ submissions and the applicable law, and
for the above-stated reasons, the Court hereby
ORDERS that Defendant’s motion for summary
judgment, see Dkt. No. 20, is GRANTED; and the Court
further
ORDERS that the Clerk of the Court shall enter
judgment in favor of Defendant and close this case.
IT IS SO ORDERED.
Is/ Fredrick J. Scullin. Jr_________
Senior United States District Judge
Dated: August 14, 2018
Syracuse, New York

App.31a

LETTER FROM PALL CORPORATION
(DECEMBER 23, 2015)
(PALL) Paff Gerpstation
•3543:S5sJ$fietife&8t

Amadou Sowe
113 Burleigh Drive
Ithaca, NY 14850
Dear Amadou:
Enclosed for your consideration are a Separation
and. General Release Agreement (the “Agreement”) and
a statistical analysis identifying those people who are
eligible and ineligible for benefits covered under the
Agreement. The offer to accept the terms of the Agree­
ment is open for forty-five (45) days from the date
you receive the Agreement. To accept the Agreement,
please execute it where your signature line appears
and return it to me.
You may revoke the Agreement within seven (7)
days after you have signed it. It does not become
effective until such seven days have passed, and none
of the Company’s obligations under the Agreement are
binding until that time has passed. No payments will
be made unless and until the Agreement is signed and
the seven day revocation period has passed.
You are advised to consult with an attorney before
executing the Agreement.
Information pertaining to the Company’s retire­
ment plans, COBRA continuation of health benefits

-•

App.32a
and/or your last paycheck will be distlibuted to you
separately.
Very Truly Yours,
/s/ Pamela A. Denmark. GPHR
Human Resources Manager

App.33a

DECLARATION OF MELANIE CARR IN
SUPPORT OF DEFENDANTS MOTION
FOR SUMMARY JUDGMENT
(JUNE 15, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK
AMADOU SOWE,
Plaintiff,
v.
PALL CORPORATION,
Defendant.
Case No. 3:17-cv-00449-FJS-DEP
MELANIE CARR, pursuant to 28 U.S.C. § 1746,
declares under penalty of perjury that the following
is true and correct:
1. 1 am employed as a Director in the Human
Resources (“HR”) organization at Pall Corporation
(“Pall”) and have worked in HR at Pall since 2007. I
submit this Declaration in support of Pall’s Motion
for Summary Judgment in this action. I know the facts
testified to in this Declaration to be true based upon
my own personal knowledge.

App.34a
2. Pall is a manufacturer and supplier of fluid
filtration, separation and purification products and
solutions.
3. In December 2015, Pall effected a reduction in
force within its Central' Technology Organization
(“CTO”), resulting in the separation of thirteen (13)
CTO employees, including Plaintiff Amadou Sowe. The
impacted employees worked at Pall’s facilities in
Cortland, NY; Port Washington, NY; and Pensacola,
FL.
4. In connection with the termination of his em­
ployment, Plaintiff signed a Separation and General
Release Agreement (“Separation Agreement”) in
exchange for a monetary payment. Plaintiff never
revoked his signature, nor did he ever return the
money he received under the Separation Agreement to
Pall. ‘
5. At the time he received his proposed Separation
Agreement, Plaintiff also received a reduction in
force memo with a chart of impacted and non-impacted
CTO employees (“RIF memo”). The RIF memo reflected
the ages and job titles of CTO employees who worked
in the U.S., and categorized those who were subject
to termination as a result of the reduction in force
and those who were not.
6. Pall employed an employee in the Fellow
position at its Pensacola facility, beginning in October
2014.
7. Pall did not refill Plaintiffs position until Oct­
ober 2016, when it hired an applicant who was age
49.

App.35a
8. Pamela Denmark’s position was eliminated,
effective February 1, 2016, in connection with a
reduction in force impacting Pall’s HR organization.
/s/ Melanie Carr
Executed on June 15, 2018

App.36a
PLAINTIFFS RESPONSE TO STATEMENT OF
UNDISPUTED FACTS AND PLAINTIFFS
COUNTER-STATEMENT OF FACTS—
RELEVANT EXCERPTS
(JULY 24, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
AMADOU SOWE
Plaintiff,
v.
PALL CORPORATION,
Defendant.
Docket No. 3:17-CV-00449-FJS-DEP
1. Pall Corporation submits the following state­
ment of fact:
1. Pall is a manufacturer and supplier of fluid
filtration, separation and purification products
and solutions. (Declaration of Melanie Carr
(“Carr Decl.”), filed contemporaneously here­
with, at f 2.)
RESPONSE: Admitted.
2. Pall Corporation submits the following state­
ment of fact:

App.37a
2. For the duration of his Pall employment, com­
mencing in 1988, Plaintiff worked at Pall’s
Facility in Cortland, New York. (Deposition of
Plaintiff Amadou Sowe (“PL Dep.”) 21:13-14,
27:17-19.)!
RESPONSE: Admitted.
[...]
12. Pall Corporation submits the following
statement of fact:
12. On December 23, 2015, Mr. Sorensen and
Ms. Denmark met with Plaintiff and hand-deliv­
ered a proposed Separation and General Release
Agreement (“Separation Agreement”), along with
a reduction in force memo with a chart of impacted
and non-impacted CTO employees (“RIF memo”).
(PI. Dep. 33:20-34:25, PI. Dep. Exh. 2.; PI. Dep.
58:8-59:21, PI. Dep. Exh. 6.)
RESPONSE: Admitted in part; denied in part.
COUNTER-STATEMENT: Mi'. Sorensen and Ms.
Denmark met with Sowe. Ms. Denmark, not Sorensen,
hand-delivered the actual (not proposed) Separation
and General Release Agreement. Denmark also handed
to Sowe the letter, dated December 23, 2015, copied
below, that contained the precise instruction from
signature line appears and return it to me (emphasis
added):

App.38a
^ iiiii mi I

(PAUL) Pall Corporation

'VH'V.pjtJXltft

Amadou Sows.
113 Burleigh Drive
Ithaca, NY H85S
Dear Amadou:
Enclosed for your consideration are a Separation and General Release Agreement (tlte
“Agreement") and a statistical analysis identifying those people i^&aredtgpble and
mcfigibte for benefits covered tinder the Agreement, the offer to accept the terms of the
Agreement is open for forty-five (45) days from the date you receive the Agreement. To
accept the Agreement, please execute it where yow si^taiure line: appears and return it to
me.
You may revoke the Agreement within seven (?) days after yem have signed it ft does
not become effective until such seven days have passed, andaone of Chs Germany's
obligations under the Agreement are binding until that fimehas passed. Mo payments
wh be made usifes$ and until the Agreement tempted and die seven day revaeatiem
period has passed.
You are advised to consult with on attorney before executing the Agreement.
fefomtati on pertaining 10 the Company's. retiremem plans. COBRA eominuatmn of
health benefits and/ar your last paycheck wiH be distributed to you separately.

Vcry/ftftiy Yours* ^

Pamela A. Denmark, GPIIR
Human Resources Manage?

Denmark’s explicit direction to Sowe to “return
it to me” created the firmly held impression that
given the secrecy about the separation process, the
fact that Sowe had only dealt with Denmark about
the separation process, and the fear of being denied
the severance package if the direction was not
precisely followed, compelled Sowe to believe that the
Separation Agreement had to be delivered to Denmark
and no one else.
[...]

App.39a
40. Pall Corporation submits the following
statement of fact:
40. The Separation Agreement provided a fiftyfour (54) day consideration period (December 23,
2015 until February 15, 2016). (PL Dep. Exh. 2,
pp. 1, 5.)
RESPONSE: Denied.
COUNTER-STATEMENT:
Pall created confusion and ambiguity regarding
the stated that the 45-day period began on December
23, 2015, all which would have caused the 45-day to
expire on February 6, 2016. The Separation Agreement,
itself, establish the end of the 45-day period to be
February 15, 2016.
41. Pall Corporation submits the following
statement of fact:
41. Pamela Denmark’s position was eliminated
in connection with a reduction in force impacting
Pall’s HR organization. (Carr Decl. at ]j 8; Depo­
sition of Pamela Denmark (“Denmark Dep.”)
5:23-6:22.)
RESPONSE: Admitted.
COUNTER-STATEMENT:
The undeniable, uricontroverted fact that Den­
mark left employment before the end of the 45-day
statutory required Sowe to deliver the Separation
Agreement to her in violation of his rights. Only Pall
had the opportunity to rectify this ambiguity by
requiring the delivery of the Separation Agreement
to a designated Pall employee who was still working
for Pall.
[...]

a

App.40a
80. Plaintiff understood that the monetary con­
sideration he received pursuant to his Settlement
Agreement was in exchange for the promises he
made in the agreement. (PI. Dep. 57:22-58:2.)
RESPONSE: Denied.
COUNTER-STATEMENT: Sowe understood that the
money paid by Pall was a calculated severance
package that Pall coerced Sowe to accept as part of a
subterfuge to discriminate against him based upon
age.
DECLARATION
I, Amadou Sowe, pursuant to 28 U.S.C. § 1746,
under penalty of perjury, state that Responses and
the Counter-Statement are true to the best of my
knowledge,, information and belief.
/s/ Amadou Sowe
July 24, 2018
/s/ Edward E. Konko. Eso.______
Bar Roll No. 510874
Edward E. Kopko, Lawyer, P.C.,
Attorney for Amadou Sowe
308 N. Tioga Street, Second Floor
Ithaca, New York 14850
607.269.1300; Fax 607.269.1301
ekopko@it.haca.law
Tuesday, July 24, 2018

r

